BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF COMPLIANCE
No. 20-54
BRIDGE AINA LE'A, LLC,

Petitioner,
v.
HAWAII LAND USE COMMISSION,

Respondent.
As required by Supreme Court Rule 33. l(h), I
certify that the Amicus Curiae Brief of National
Association of Home Builders of the United States and
California Building Industry Association in Support of
Petitioner contains 3,978 words, excluding the parts of
the Brief that are exempted by Supreme Court Rule
33.l(d).
I declare under penalty of perJury that the
foregoing is true and correct.
Executed on August 21, 2020.

Do'ii'na J. Wolf
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

Sworn to and subscribed before me by said Affiant
on the date designated below.
Date:

Notary~
[seal]

<:ks~ di; cZJJo
J3, ~
JOHN D. GALLAGHER
Notary Publlc, State of Ohio
My Commission Expires
February 14, 2023

